PERFORMANCE AUDIT
OF THE


Buckeye Hills-Hocking Valley
Regional Development District

LDD Administrative Grant
Grant: OH-707-B-C41
OIG Report Number: 13-32
GRANT PERIOD:

JANUARY 1, 2012 – DECEMBER 31, 2012
Appalachian Regional Commmission
1666 Conneccticut Avenue
                       e, N.W.
Suite 700
Washington, DC 20009-1068

Mr. Hubert N. Sparks
Inspector Ge
           eneral

Transmitted herewith is a report of Watkins
                                    W       Meeg
                                               gan LLC, a P Performance Audit of the Buckeye Hillls-Hocking
Valley Regio
           onal Developmment District LDD Administrative Gran
                                                            nt OH-707-B
                                                                      B-C41. The re eport is in re
                                                                                                 esponse to
Contract No. BPA 11-01-BB.




Tysons, Virgiinia
August 7, 2013
             Buckeye Hills-Hocking Valley Regional Development District LDD Administrative Grant

                                                OH-707-B-C41




Background

The Appalachian Regional Commission (ARC) is a regional economic development agency that represents a
partnership of federal, state and local governments. Established by an act of Congress in 1965, ARC is composed
of the governors of the 13 Appalachian states and a federal co-chair, who is appointed by the President. Local
participation is provided through multi-county local development districts (LDDs). Each year, ARC provides
funding for several hundred projects in the Appalachian Region, in areas such as business development,
education and job training, telecommunications, infrastructure, community development, housing, and
transportation. These projects are intended to create new jobs; improve local water and sewer systems; increase
school readiness; expand access to health care; assist local communities with strategic planning; and provide
technical and managerial assistance to emerging businesses.

The Buckeye Hills-Hocking Valley Regional Development District (LDD, or the District) was created as an agency
established by agreement among its members pursuant to Section 167.01-08 of the Ohio Revised Code. The
District is organized as a voluntary organization of local government political subdivisions in Athens, Hocking,
Meigs, Monroe, Morgan, Noble, Perry and Washington Counties to foster a cooperative effort in regional planning,
programming and implementing regional plans and programs. The District is also organized as a forum for the
discussion and study of common problems of a regional nature, and for the development of policy and action
recommendations thereto.

ARC awarded the Buckeye Hills-Hocking Valley Regional Development District the LDD Administrative Grant (the
Grant), project number OH-707-B-C41, for the period from January 1, 2012 to December 31, 2012. The Grant
provided $217,000 of ARC (federal) funding and required $72,334 of state (non-federal) matching funds, for total
funding of $289,334.

The Grant provided funding to the LDD to establish and expand economic development services in its service
area that are deemed useful and pertinent to the accomplishment of the objectives and purposes of the
Appalachian Regional Development Act of 1965 (ARDA). Funding covered personnel costs plus travel, supplies,
other direct costs and indirect expenses.

Objective

Watkins Meegan LLC was engaged to conduct a performance audit on the Buckeye Hills-Hocking Valley Regional
Development District LDD Administrative Grant for the period from January 1, 2012 to December 31, 2012. The
purpose of our performance audit was to determine that:

       Funds expended and claimed for reimbursement from ARC were valid program expenses and in
        accordance with the ARC Grant requirements;

       Internal controls were in place to ensure compliance with the Grant requirements; and

       Goals and objectives of the Grant had been achieved.




                                                       1
             Buckeye Hills-Hocking Valley Regional Development District LDD Administrative Grant

                                                 OH-707-B-C41




Executive Summary

Grant funds were used to fund the payroll and benefits of seven staff that assisted with the administration and
support of the LDD ARC programs, and to pay related administrative and program expenses. Staffing included a
Development Director/GIS Manager, two Development Specialists, a Communications Director, Program
Assistant/Communications Specialist, Business Development Coordinator and a Secretary/Receptionist. Non-
personnel costs included travel, supplies, other direct costs and indirect expenses. The staff supported the
program in various areas, including preparing and reviewing grant applications, program oversight including field
visits to ARC projects, attending regional meetings, and working with community agencies to expand economic
development services in its service area.

ARC reimbursed $217,000 of expenses for the period ended December 31, 2012 (C-41 Grant). Matching funds
provided from non-federal sources totaled $72,334 for the period ended December 31, 2012. Our review of
program expenses identified $3,347 in expenses that were reclassified to the LDD program from another grant
fund, without supporting documentation or independent approval. In general, based on interviews with LDD
personnel and review of selected documentation supporting Grant activities, it appears that the performance
objectives of the Grant were met.

Scope

We performed a performance audit of the Buckeye Hills-Hocking Valley Regional Development District LDD
Administrative Grant OH-707-B-C41 at the LDD office from May 6, 2013 through May 8, 2013, as described
below. Our audit was based on the terms of the Grant agreements and on the application of procedures in the
modified ARC Audit Program.

We conducted this performance audit in accordance with Generally Accepted Government Auditing Standards
(GAGAS). Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit objectives.

Audit Methodology

Our procedures were based on Audit Program guidelines provided by the ARC Office of Inspector General and
included suggested procedures over the LDD’s accounting and internal control systems affecting the Grant. We
met with the Executive Director to discuss the overall structure of the LDD and processes around Grant
administration and monitoring. We also discussed and reviewed other financial and operational elements related
to the conduct of the projects.

Our review of background material included ARC’s Grant agreements and related documentation, ARC Grant
approvals, the Grant applications and the Buckeye Hills-Hocking Valley Regional Development District audited
financial statements for the fiscal years ended June 30, 2011 and June 30, 2012.

Our procedures included a review of controls in place for recording, accumulating and reporting costs under the
Grant. We discussed with Management and certain staff whether the goals and objectives of the projects funded
with ARC monies had been met. This included meeting with the Executive Director and other staff to understand
how their daily activities and responsibilities supported the administration of the LDD’s ARC program. We
reviewed representative supporting documentation related to grant activities for consistency with applicable
performance measures.

                                                       2
              Buckeye Hills-Hocking Valley Regional Development District LDD Administrative Grant

                                                   OH-707-B-C41




Finally, we examined a sample of timesheets, payroll detail and related records for the staff whose employment
was supported by the ARC funds. We also inquired of key staff and reviewed supporting documentation (invoices,
vouchers, cost allocation reports, etc.) regarding the travel, supplies, other direct costs and indirect expenses that
were paid for by ARC funds to determine whether they were allowable costs and that the expenses supported
ARC staff and project coordination. We evaluated payments and other activities for compliance with applicable
Grant requirements and federal regulations.

Results

Compliance with Grant Provisions

The ARC (federal) share of actual Grant expenditures reported was $217,000 and the matching (non-federal)
share was $72,334. The total actual expenditures reported were $289,334, equal to the total ARC and matching
budget. We examined supporting documentation for a sample of the costs incurred, and determined that with the
exception of the items noted below, the funds appear to have been expended in compliance with the Grant
agreement.

Based on our discussions with LDD personnel and review of documentation supporting the final report, it appears
the program objectives were generally achieved. The Grants funded the work of seven LDD personnel supporting
Grant activities. Services included preparing and reviewing grant applications, program oversight including field
visits to ARC projects, attending regional meetings, and working with community agencies to expand economic
development services in its service area.

Finding – Unallowable Expenses

Sample testing of expense transactions charged to the Grant identified journal entries totaling $3,347 where
expenses had been reclassified from other Grant fund accounts. Analysis of the support for these entries did not
provide any reasonable justification for the reclassifications leading to the conclusion that these expenses are not
allowable under the Grant terms.

Recommendation:

LDD management should provide analysis and support to validate reclassification entries charged to the ARC
Grant general ledger. We noted a total of approximately $7,000 in reclassification transactions. Absent valid
justification for the reclassification entries, Management should reimburse ARC for any unallowable expenses
previously paid with ARC Grant funds.

Management Response:

Management has reviewed the expense items noted and believes that they are allowable under terms and
conditions of the Grant. Management will obtain and provide the appropriate supporting documentation to justify
the expenses to their ARC point of contact as soon as possible to allow for final determination.




                                                          3
             Buckeye Hills-Hocking Valley Regional Development District LDD Administrative Grant

                                                 OH-707-B-C41




Finding – Segregation of Duties

It was noted during testing of the reclassification entries identified above that the LDD Director of Fiscal
Operations has the capability to prepare and post journal entries without any additional review and approval of the
transactions. This presents a segregation of duties issue in that a single user can make entries without adequate
oversight and review.

Recommendation:

LDD Management should review system access rights to enforce a separate preparer and reviewer/approver of
manual journal entries. To the extent that a system-driven solution is not available, a manual review and approval
of journal vouchers and supporting documentation should be implemented.

Management Response:

Management acknowledges the observation and will review system capabilities and manual procedures to
determine a cost-effective means to enforce appropriate segregation of duties for journal entries. Any such
changes will be implemented as soon as possible and, in any event, no later than August 31, 2013.




                                                        4
                www.WatkinsMeegan.com

BETHESDA   ❘   ANNAPOLIS   ❘   TYSONS CORNER   ❘   HERNDON
